[
=                                                                        SINGLE AUDIT

U.S. Department of Labor
D
I
S
C
U
S
S
                                                                         QUALITY CONTROL REVIEW


I                          Office of Inspector General—Office of Audit
O
N

D
R
A
F
T




                                                                         RECOVERY ACT: QUALITY CONTROL REVIEW
                                                                         SINGLE AUDIT OF THE SOUTH CAROLINA
                                                                         DEPARTMENT OF EMPLOYMENT AND
                                                                         WORKFORCE FOR THE YEAR ENDED
                                                                         JUNE 30, 2012




                                                                                            Date Issued:    August 29, 2014
02-A12-345-67-890                                                                        Report Number:    18-14-003-03-315
                                                  U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                                Office of Inspector General
                                                        Washington, D.C. 20210




August 29, 2014

                                       Inspector General’s Report


Don Grant
Chief Financial Officer
South Carolina Department
 of Employment and Workforce
1550 Gadsden Street
Columbia, SC 29202

Dear Mr. Grant:

The U.S. Department of Labor (DOL), Office of Inspector General (OIG) conducted a
Quality Control Review (QCR) of the Single Audit of the South Carolina Department of
Employment and Workforce (SC DEW) for the year ended June 30, 2012. The single
audit was completed by Scott and Company LLC, (Firm), under the Federal Single Audit
Act and Office of Management and Budget (OMB) Circular A-133 (A-133).

Our QCR included the following DOL major programs: Unemployment Insurance (UI),
Trade Adjustment Assistance (TAA), and the Workforce Investment Act (WIA) cluster1
totaling $754,005,282, which included $1,161,255 of American Recovery and
Reinvestment Act (Recovery Act) expenditures.

Since our review included Recovery Act funds, we are required by the Recovery Act to
post this report on our website www.oig.dol.gov and link it to the Recovery
Accountability and Transparency Board’s (Board) website www.recovery.gov.

Our objectives were to determine if: (1) the audit was conducted in accordance with
applicable standards, including Generally Accepted Government Auditing Standards
(GAGAS) and Generally Accepted Auditing Standards (GAAS), and met the
requirements of A-133; (2) there are any issues that may require management’s
attention; and (3) any follow-up work is needed to support the opinions contained in the
audit report.

While we found the audit was conducted in accordance with applicable standards and
met Single Audit Act requirements, we noted improvements to the Firm’s audit
documentation preparation and review should be made, and several reporting issues
require management’s attention and necessitate follow-up work. Specifically, we found

1
 A cluster is a grouping of closely related programs that have similar compliance requirements. Clusters are treated
as a single program for the purpose of meeting the audit requirements of A-133, Section 105.

                                                    1                  SC Dept. of Employment and Workforce
                                                                                          18-14-003-03-315
                                       U.S. Department of Labor – Office of Inspector General


the audit work needed to be improved because the Firm did not always include
complete and clear audit documentation as required by GAGAS. In addition, SC DEW
submitted Fiscal Years (FY) 2010, 2011, and 2012 reporting packages late and the Firm
did not report this as a finding and should have included an additional recommendation
in FY 2012. Furthermore, SC DEW did not submit a corrective action plan that included
an anticipated completion date for each FY 2012 finding’s recommendation.

We recommend the Firm comply with its audit documentation policy to staff performing
and reviewing single audits to ensure these projects are documented in accordance
with GAGAS, and report as a finding and recommendation the late Federal Audit
Clearinghouse (FAC) submissions in the FY 2013 single audit report. In October 2013,
the Employment and Training Administration (ETA) resolved and closed SC DEW’s
FY 2012 recommendations. Therefore, SC DEW will not need to resubmit a corrective
action plan. However, SC DEW does need to ensure for future single audit reports that
corrective action plans include anticipated completion dates for each recommendation.

A-133, Section 400(a)(5), requires us to advise the auditor, and where appropriate, the
auditee of any deficiencies found in the audits when the deficiencies require corrective
action by the auditor. When advised of deficiencies, the auditee shall work with the
auditor to take corrective action. If corrective action is not taken, we are responsible for
notifying the auditor, the auditee, and applicable federal awarding agencies and
pass-through entities of the facts and make recommendations for follow-up action.
Major inadequacies shall be referred to the appropriate state licensing agencies and
professional bodies for disciplinary action.

Details on the results of our review are provided in the Enclosure.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

Enclosure

cc: Mr. Donald J. Mobley, Managing Partner, Scott and Company LLC
   Mr. Stephen Daniels, Director, Division of Policy, Review, and Resolution, ETA
   Ms. Julie Cerruti, Audit Liaison, ETA
   Ms. Jennifer Richards, Audit Liaison, ETA




                                         2            SC Dept. of Employment and Workforce
                                                                         18-14-003-03-315
                                      U.S. Department of Labor – Office of Inspector General


                                                                                Enclosure

                       Recovery Act: Quality Control Review


  Single Audit of the South Carolina Department of Employment and Workforce


                         for the Year Ended June 30, 2012


                                 (18-14-003-03-315)



Introduction

The Single Audit Act of 1984, as amended by the Single Audit Act Amendments of
1996, created a single organization-wide financial and compliance audit requirement for
state and local governments, colleges, universities, and not-for-profit organizations that
expend federal funds equal to or greater than $300,000 in any fiscal year ($500,000 for
fiscal years ending after December 31, 2003).

On May 24, 2013, the Firm issued a single audit report of SC DEW’s financial
statements, Schedule of Expenditures of Federal Awards (SEFA), and reports required
by GAGAS and A-133 for the year ended June 30, 2012.

Our review included the following DOL major programs:

DOL Major Programs Reviewed
                                          Catalog of
                                            Federal         Recovery               DOL
                                           Domestic        Act Funds       Major Funds
                                         Assistance       Reported as       Reported as
Major Program                        (CFDA) Number          Expended          Expended
UI                                           17.225                        $692,386,782
TAA                                          17.245                          $9,333,284
                                             17.258
WIA Cluster                                  17.259
                                             17.278                         $51,123,961
                                             17.258
Recovery Act – WIA Cluster                   17.259
                                             17.278         $1,161,255
Subtotals                                                   $1,161,255
                                                                          $752,844,027
Total DOL Major Funds Reported as Expended                                $754,005,282

Since our review included Recovery Act funds, we are required by the Recovery Act to
post this report on our website www.oig.dol.gov and link it to the Board’s website
www.recovery.gov.




                                        3           SC Dept. of Employment and Workforce
                                                                       18-14-003-03-315
                                      U.S. Department of Labor – Office of Inspector General


Objectives

The objectives of the QCR were to determine if: (1) the audit was conducted in
accordance with applicable standards, including GAGAS and GAAS, and met the
requirements of A-133; (2) there are any issues that may require management’s
attention; and (3) any follow-up work is needed to support the opinions contained in the
audit report.

Results

We found the audit was conducted in accordance with applicable standards and met
Single Audit Act requirements. However, we noted improvements are needed to the
Firm’s audit documentation preparation and review, and several reporting deficiencies
require management’s attention and necessitate follow-up work. Specifically, we found
the report’s audit work needed improvement because the Firm did not always maintain
complete and clear audit documentation as required by GAGAS, and did not report that
FYs 2010, 2011, and 2012 reporting packages were submitted late to the FAC. In
addition, SC DEW did not submit a corrective action plan that included anticipated
completion dates for each finding and recommendation.

Finding 1 — The Firm met OMB A-133 and GAGAS requirements with audit
            documentation, but improvements are needed.

The Firm did not always ensure its audit documentation adequately supported its
conclusions on SC DEW’s internal control and compliance as required by
GAGAS and A-133. For example, audit documentation did not show how the
Firm ensured:

   1.		 completeness of databases and the sampling methodology, including sample
        size used in internal control compliance testing, and compliance with laws,
        regulations, and grant agreements testing was appropriate;

   2. documentation of supporting details for each expenditure reported in the SEFA;

   3.		 the proper disposition of an exception; and,

   4. documentation of a conclusion on internal control over compliance testing, and
      compliance with laws, regulations, and grants.


The Firm used a single audit software program to document its audit work that included
proforma audit documents for compliance testing. This software program followed OMB
A-133 and other guidance. The proforma audit documents led to supporting detailed
audit documentation. The supporting detailed audit documentation demonstrated testing
and analysis had been performed and conclusions reached. However, the Firm did not
prepare proforma audit documents for each compliance test. In other instances,


                                        4              SC Dept. of Employment and Workforce
                                                                          18-14-003-03-315
                                      U.S. Department of Labor – Office of Inspector General


supporting detailed audit documentation was incomplete in its analysis and conclusion.
Yet in other instances, audit documentation was not clearly linked to supporting detailed
audit documentation. In each instance, these audit documents were reviewed, but the
supervisory review did not identify the incomplete and unclear audit documents.

GAGAS, paragraph 4.19, partly states, in part:

      Under AICPA [American Institute of Certified Public Accountants]
      standards and GAGAS, auditors must prepare audit documentation in
      connection with each audit…that enables an experienced auditor, having
      no previous connection to the audit, to understand:

             a. the nature, timing, and extent of auditing procedures
             performed to comply with GAGAS and other applicable
             standards and requirements;

             b. the results of the audit procedures performed and the
             audit evidence obtained; …

             d. that the accounting records agree or reconcile with the
             audited financial statements or other audited information.

According to the Firm, documentation was in the files to support completeness of the
databases and sample size. However, this information was not clearly linked from the
testing to the detailed support. Additionally, detailed audit documentation supported the
SEFA, but was difficult to follow without assistance from the auditor. Further, the Firm
stated the dispositions on an exception and the testing conclusions were oversights and
it provided revised audit documentation. In each instance, the Firm was able to provide
verbal information and audit documentation that had not originally been referenced as
support for its audit work and we were able to determine that the audit work supported
the single audit report. The Firm should have documented its work so a reviewer not
familiar with the audit could understand the work performed.

The Firm needs to comply with its audit documentation policy when performing and
reviewing single audits to ensure single audit projects are documented in accordance
with GAGAS. The lack of documented explanations and referencing regarding how
compliance and internal control testing were conducted and how this work formed the
basis for the Firm’s conclusions could raise questions regarding the auditor’s
understanding of the testing performed and the conclusions reached.

Finding 2 —		 SC DEW submitted its annual reporting packages late to the FAC
              and the Firm did not report this as a finding and recommendation.

For three consecutive years — FYs 2010, 2011, and 2012 — SC DEW did not submit
the single audit reports and the data collection forms to the FAC by the required due
dates. The reports were late for the first two years by two and one-half months and for


                                       5            SC Dept. of Employment and Workforce
                                                                       18-14-003-03-315
                                                 U.S. Department of Labor – Office of Inspector General


the third year by almost three months. According to the Firm, it discussed this point with
the State Auditor of South Carolina since it had also submitted A-133 single audit
reports late. The State Auditor advised that it did not report the late filing of the South
Carolina Single Audit Report 2 as a finding because the late filing was caused by the
State Auditor’s office, not the auditee. In contrast, the Firm indicated SC DEW’s Single
Audit Report’s lateness occurred because SC DEW maintained its information in two
accounting systems, which necessitated extensive reconciliation to the required Federal
Accounting Reporting System. This extensive reconciliation process delayed providing
the Firm with timely and accurate information. Ultimately, the Firm decided the reports’
lateness would be obvious to the FAC since reports are dated when accepted, and
therefore, a formal written recommendation was not needed. In addition, the Firm
informed SC DEW that because of the late filing, the auditee would be considered high
risk, which it was deemed already. Thus the Firm determined the late filing was not a
reportable issue because the FAC submission date was already reflected by the Single
Audit’s late filing and there was no effect on the audit. The FY 2013 Single Audit was
due by March 31, 2014 and was accepted by the FAC on May 15, 2014 making the its
submission late. The Firm reported the late filings for FYs 2010, 2011, 2012 and 2013
as a finding and recommendation in the FY 2013 Single Audit.

A-133, Section 320(a), requires completion of the audit and submission of the reporting
package no later than nine months after the end of the audit period. The Firm should
have reported the late filings as additional findings and recommendations annually.
Without inclusion of these findings and recommendations, there is potential for the
auditors to not deem the auditee as high risk and therefore not conduct the necessary
audit testing. Further, the single audit report should stand on its own and include all
findings, even those that could be apparent by other means.

Finding 3 — SC DEW’s Corrective Action Plan did not include anticipated
            completion dates.

In its written response to the FY 2012 single audit recommendations, SC DEW did not
include required anticipated completion dates for corrective actions. Of the three
recommendations, SC DEW’s response to one indicated action would be taken in the
future without specifying a date. For the remaining two recommendations, SC DEW
made no mention of any anticipated completion dates.

SC DEW stated that it was unaware that providing a completion date was a requirement
for each recommendation. As of October 2013, ETA had resolved these
recommendations. The resolved recommendations indicated that ETA had reviewed
documentation including a written response from SC DEW. ETA was satisfied that
controls were in place to prevent one recommendation from reoccurring. For the
remaining two recommendations, ETA was satisfied that plans and processes will be in
place by December 2014.


2
 The oversight agency for the State of South Carolina Single Audit Report is the U.S. Department of Health and
Human Services.

                                                   6               SC Dept. of Employment and Workforce
                                                                                      18-14-003-03-315
                                       U.S. Department of Labor – Office of Inspector General


A-133, Section 315(c), requires the auditee’s corrective a plan to address each finding
and include anticipated completion dates. SC DEW should have included an anticipated
completion date in its written response to the recommendations.


Recommendations

We recommend the Firm:

   1. Comply with its audit documentation policy when performing and 

      reviewing single audits to ensure single audit projects are documented in 

      accordance with GAGAS. 


   2. Ensure SC DEW submits a reporting package for FY 2013 that as of


      March 31, 2014, was late; and reports the late FAC submissions for FYs 

      2010, 2011, 2012, and 2013, as a finding and recommendation.



We recommend SC DEW:

   3. Ensure future single audits submitted to FAC include in the corrective 

      action plan anticipated completion dates for each reported


      recommendation.



A-133, Section 400(a)(5), requires us to advise the auditor, and where appropriate, the
auditee of any deficiencies found in the audits when the deficiencies require corrective
action by the auditor. When advised of deficiencies, the auditee shall work with the
auditor to take corrective action. If corrective action is not taken, we are responsible for
notifying the auditor, the auditee, and applicable federal awarding agencies and
pass-through entities of the facts and for making recommendations for follow-up action.
Major inadequacies shall be referred to appropriate state licensing agencies and
professional bodies for disciplinary action.

Firm’s and State’s Responses

Both the Firm and SC DEW agreed with the recommendations and provided their plans
to address each of them. See Appendices D and E for the Firm’s and SC DEW’s
complete responses to our report.




                                         7            SC Dept. of Employment and Workforce
                                                                         18-14-003-03-315
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






           8            SC Dept. of Employment and Workforce
                                           18-14-003-03-315
               U.S. Department of Labor – Office of Inspector General




Appendices






                9            SC Dept. of Employment and Workforce
                                                18-14-003-03-315
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






           10           SC Dept. of Employment and Workforce
                                           18-14-003-03-315
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Background

The Single Audit Act of 1984 (Act) established consistent and uniform entity-wide audit
requirements for state and local governments receiving federal financial assistance. The
single audit is the primary mechanism used by federal agencies to ensure accountability
for federal awards. Audits performed under the Act are intended to satisfy all federal
agencies providing assistance to the entity. The Act was amended in 1996 by Public
Law 104-156, raising the threshold for single audit to $300,000 in federal assistance.
The June 27, 2003, revision to A-133 raised this threshold to $500,000 for fiscal years
ending after December 31, 2003.

A QCR is performed to provide evidence of the reliability of single audits to the auditors
of federal agency financial statements, such as those required by the Chief Financial
Officers Act, those responsible for the programs, and others. We performed a QCR of
the single audit performed by the Firm of the SC DEW’s financial statements, SEFA,
and reports required by GAGAS and A-133 for the year ended June 30, 2012.

For the year ended June 30, 2012, SC DEW reported expenditures of about
$754 million that were entirely DOL awards, of which about $1.2 million was reported as
attributable to the Recovery Act.

The Recovery Act was signed into law on February 17, 2009, initially set to end
September 2013, it was extended through September 30, 2015. The stated purposes of
the Recovery Act were to:

   •		 preserve and create jobs and promote economic recovery;
   •		 assist those most impacted by the recession;
   •		 provide investments needed to increase economic efficiency by spurring


       technological advances in science and health;


   •		 invest in transportation, environmental protection, and other infrastructure that
       will provide long-term economic benefits; and
   •		 stabilize state and local government budgets, in order to minimize and avoid
       reductions in essential services and counterproductive state and local tax
       increases.

The Recovery Act required agencies to implement an unprecedented level of
transparency and accountability to ensure the public can see where and how their tax
dollars were being spent. The Board was established by the Recovery Act, Congress,
and OMB to oversee and monitor implementation of the Recovery Act through periodic
reporting on the use and expenditure of funds. We were required by the Recovery Act,
Title XV, Accountability and Transparency, Subtitle A – Transparency and Oversight
Requirements, Section 1514, Inspector General Reviews, to post this report on our
website www.oig.dol.gov and link it to the Board’s website www.recovery.gov.



                                        11           SC Dept. of Employment and Workforce
                                                                        18-14-003-03-315
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






           12           SC Dept. of Employment and Workforce
                                           18-14-003-03-315
                                       U.S. Department of Labor – Office of Inspector General


                                                                               Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our objectives were to determine if:

     1.		 the audit was conducted in accordance with applicable standards including
          GAGAS and GAAS and met the requirements of A-133;

     2.		 there are any issues that may require management’s attention; and

     3. any follow-up work is needed to support the opinions contained in the audit
        report.

Scope

We performed a QCR of the Firm’s single audit of SC DEW’s financial statements,
SEFA, and reports required by GAGAS and A-133 for the year ended June 30, 2012. As
part of the QCR, we included review of the single audit reports issued by SC DEW and
the Firm for the year ended June 30, 2012, as well as the single audit reports for the
years ended June 30, 2011, and 2010, to identify systemic issues. We performed our
work at the offices of the Firm at 1441 Main Street, Suite 800, Columbia, SC.

Our review included the following DOL major programs:

DOL Major Programs Reviewed
                                                             Recovery              DOL
                                                            Act Funds       Major Funds
                                                           Reported as      Reported as
Major Program                          CFDA Number           Expended         Expended
UI
                                                17.225                      $692,386,782
TAA                                             17.245                        $9,333,284
                                                17.258
WIA Cluster                                     17.259
                                                17.278                       $51,123,961
                                                17.258
Recovery Act-WIA Cluster                        17.259
                                                17.278       $1,161,255
Subtotals                                                    $1,161,255
                                                                           $752,844,027
Total DOL Major Funds Reported As Expended                                 $754,005,282




                                        13           SC Dept. of Employment and Workforce
                                                                        18-14-003-03-315
                                      U.S. Department of Labor – Office of Inspector General


Methodology

We reviewed the audit report using the Council of the Inspectors General on Integrity
and Efficiency (CIGIE) Guide for Desk Reviews of A-133 Audit Reports (Desk Guide).
The Desk Guide was developed to ensure compliance with the requirements of the
Single Audit Act, Single Audit Act Amendments of 1996, and A-133. We focused our
review on the report’s qualitative aspects of: (1) due professional care; (2) auditors'
qualifications and independence; (3) financial statements, compliance, and internal
control reporting; (4) SEFA; and (5) Schedule of Findings and Questioned Costs.

Using the CIGIE Uniform Guide for QCRs of A-133 Audits (QCR Guide), we reviewed
audit documentation and held discussions with the Firm’s partners and auditors to
accomplish the required steps. The QCR Guide was developed to test for compliance
with GAGAS general and fieldwork standards and A-133 requirements.

Specifically, we reviewed:

   •   Auditor Qualifications
   •   Independence
   •   Due Professional Care
   •   Quality Control
   •   Planning and Supervision
   •   Management Representations
   •   Litigation, Claims and Assessments
   •   Possible Fraud or Illegal Acts
   •   Determination of Major Programs
   •   Schedule of Expenditures of Federal Awards
   •   Audit Follow up
   •   Reporting
   •   Internal Control Over Major Programs
   •   Data Collection Form

We also reviewed the Firm’s peer review applicable to the period of the audit.

Criteria

   •   A-133
   •   GAGAS, July 2007 Revision
   •   Guidance on GAGAS Requirements for Continuing Professional Education
   •   Recovery Act
   •   Single Audit Act of 1984
   •   Single Audit Act Amendments of 1996


                                        14          SC Dept. of Employment and Workforce
                                                                       18-14-003-03-315
                                U.S. Department of Labor – Office of Inspector General


                                                                        Appendix C
Acronyms and Abbreviations

A-133                 Office of Management and Budget Circular A-133

Board                 Recovery Accountability and Transparency Board

CIGIE                 Council of the Inspectors General on Integrity and Efficiency

CFDA                  Catalog of Federal Domestic Assistance

Desk Guide            CIGIE Guide for Desk Reviews of A-133 Audit Reports

DOL                   Department of Labor

ETA                   Employment and Training Administration

FAC                   Federal Audit Clearinghouse

Firm                  Scott and Company LLC

FY                    Fiscal Year

GAAS                  Generally Accepted Auditing Standards

GAGAS                 Generally Accepted Government Auditing Standards

OIG                   Office of Inspector General

OMB                   Office of Management and Budget

QCR                   Quality Control Review

QCR Guide             CIGIE Uniform QCR Guide for A-133 Audits

Recovery Act          American Recovery and Reinvestment Act

SC DEW                South Carolina Department of Employment and Workforce

SEFA                  Schedule of Awards of Federal Expenditures

TAA                   Trade Adjustment Assistance

UI                    Unemployment Insurance

WIA                   Workforce Investment Act

                                    15         SC Dept. of Employment and Workforce
                                                                  18-14-003-03-315
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






           16           SC Dept. of Employment and Workforce
                                           18-14-003-03-315
                                  U.S. Department of Labor – Office of Inspector General


                                                                          Appendix D
Firm’s Response to Draft Report




                                   17           SC Dept. of Employment and Workforce
                                                                   18-14-003-03-315
U.S. Department of Labor – Office of Inspector General




 18           SC Dept. of Employment and Workforce
                                 18-14-003-03-315
                               U.S. Department of Labor – Office of Inspector General


                                                                       Appendix E
SC DEW's Response to Draft Report




                                    19       SC Dept. of Employment and Workforce
                                                                18-14-003-03-315
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
